                     


  




Office of
Inspector General
                        Semiannual Report to the Congress
                                 April 1 through
                               September 30, 2013



                                    Number 49

                                  October 24, 2013




                          FARM CREDIT ADMINISTRATION
Farm Credit Administration	                                           Office of Inspector General
                                                                      1501 Farm Credit Drive
                                                                      McLean, Virginia 22102-5090




October 24, 2013


The Honorable Jill Long Thompson, Board Chair and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Leland A. Strom, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period April 1 through September 30, 2013. This
is the forty-ninth report since the establishment of the OIG on January 22, 1989.

I submit this report in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

I am honored to submit this report as the Inspector General, having been appointed on June 19,
2013, following my service in the roles of Acting IG, Deputy IG, and Counsel to the IG since the FCA
OIG’s establishment. Together with the FCA Board and management, it is my expectation and my
goal to continue to improve the high quality of Agency programs and operations.

On June 28, 2013, the OIG issued a final report on an audit of the Agency’s Telework Program. We
determined the Agency sufficiently established a policy outlining telework eligibility requirements;
adopted the telework program into the continuity of operations plan; and submitted required annual
reports on the telework program. We did, however, identify areas where improvements can be
made. Three agreed-upon actions resulted from this audit. At the end of this reporting period, all
agreed-upon actions were closed. Please refer to page 4 for further information.

On September 23, 2013, the OIG issued a final report on an audit of the Agency’s Student Loan
Repayment Program. We determined the Agency’s policy governing student loan repayment
benefits is generally consistent with related laws and regulations; however, varying levels of
compliance with the policy and its controls have evolved over time. Three agreed-upon actions
resulted from this audit. At the end of this reporting period, one action item remains open. Refer to
page 4 for further information.

The OIG contracted with the Bureau of Fiscal Services for Brown & Company CPAs, PLLC to
perform the audit of FCA’s financial statements for fiscal year 2013. This audit was ongoing at the
end of this reporting period. Please refer to page 5 for further information.

Also initiated and ongoing during this period is the OIG’s annual evaluation of the Agency’s
compliance with the Federal Information Security Management Act. This evaluation is conducted by
the OIG’s Senior Information Technology Auditor. Please refer to page 5 for further information.

The OIG continues to send surveys to the Farm Credit System institutions following regulatory safety
and soundness examinations and other interactions with the FCA Office of Examination (OE). The
results of the survey, evaluating the quality of the examination work and OE interactions, are
summarized without attribution on a quarterly basis. The FCA Board and OE find this to be a
valuable measuring tool.

I would like to acknowledge the effective efforts of the OIG staff in diplomatically leading the Agency
management to focus on significant program issues, and management’s positive and timely reaction
and improvement. I look forward to continuing a positive and effective relationship between the OIG
and the FCA Board, a partnership striving to continuously strengthen FCA operations.

If you have any questions, please call me at 4036 or 4030.

Respectfully,




Elizabeth M. Dean 

Inspector General


Enclosure
                                      Contents



EXECUTIVE SUMMARY…………………………………………………………….……………… 1


BACKGROUND……………………………………………………………………………………… 3 

  FARM CREDIT ADMINISTRATION………………………………………………………………… 3

  FARM CREDIT SYSTEM…………………………………………………………………………… 3


AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 4

  TELEWORK PROGRAM…………………………....................................................................... 4

  STUDENT LOAN REPAYMENT PROGRAM…………………………………………………….... 4


AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 5 

  FY 2013 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA …………………….............. 5

  FY 2013 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION …………… 5 


STATUS OF UNIMPLEMENTED RECOMMENDATIONS….………..………………................. 5 


MANAGEMENT ADVISORY REPORT ISSUED…..…………………………………………….. 6


INVESTIGATIONS…………………………………………………………………………………... 6 


LEGISLATION AND REGULATIONS…………………………………………………………….. 7 


OTHER ACTIVITIES………………………………………………………………………………...                                                   9 

  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………                                    9

  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….                        9 

  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………                                       9 

  STAFF DEVELOPMENT…………………………………………………………………………...                                                  9


ANNEX……………………………………………………………………………………………..... 10


APPENDICES

   APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...                                  11

   APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....                        12

   APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                                    13

   APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS

                  BE PUT TO BETTER USE…………………………………………………….                                       14

   APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………                                 15

   APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……                                16

   APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                                     17

   APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART..………….....                       18 

   APPENDIX I – GLOSSARY OF TERMS.………..…………………………………………...…….                                     19

                           Executive Summary




This Semiannual Report to the Congress summarizes the activities and accomplishments of the
Farm Credit Administration’s (FCA or Agency) Office of Inspector General (OIG) for the period
April 1 through September 30, 2013. The OIG’s efforts were directed toward implementing the
OIG’s fiscal year (FY) 2013 strategic and operating plan and budget; performing audits,
inspections, and evaluations of FCA programs and operations; conducting investigations, as
necessary; independently and confidentially surveying Farm Credit System (FCS or System)
institutions regarding the effectiveness of the Agency’s examination function and examiners; and
providing objective, independent reporting and counsel to the FCA Board on FCA programs and
operations.

During this reporting period, Elizabeth M. Dean was appointed Inspector General on
June 19, 2013, after serving in the roles of Acting IG, Deputy IG, and Counsel to the IG at FCA
since 1989.

On June 28, the OIG issued a final audit report on the Agency’s Telework Program. There were
three agreed-upon actions that resulted and were closed during this reporting period. See page
4 for further information.

Also, during this reporting period, on September 23, the OIG issued an audit report on the
Agency’s Student Loan Repayment Program. There were three agreed-upon actions that
resulted. Two action items have been closed and one remains open at the end of this reporting
period. See page 4 for further information.

The OIG contracted with the Bureau of Fiscal Services (BFS) for Brown & Company CPAs,
PLLC (Brown & Co.) to perform the audit of FCA’s financial statements for FY 2013. This audit
was ongoing at the end of this reporting period. See page 5 for further information.

Also, initiated and ongoing during this period was the OIG’s annual evaluation of the Agency’s
compliance with the Federal Information Security Management Act (FISMA). This evaluation is
conducted by the OIG’s Senior Information Technology (IT) Auditor. See page 5 for further
information.

Additionally, the OIG issued two quarterly reports to the Chief Examiner and FCA Board on
results of OIG surveys of the System institutions regarding the examination function and the
examiners. These reports were for the quarters ended March 31 and June 30 2013.




           	                                                       	
           	                                   1             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                               APRIL–SEPTEMBER 2013	
During this period, the OIG updated and issued its Strategic and Operating Performance Plan
and Budgets for FYs 2014-2015 (SOPP). The SOPP is on the OIG’s website at
http://www.fca.gov/home/inspector/ig_reports.html. Included in the SOPP is the OIG’s Audit
Plan covering FYs 2014-2015 and beyond.

The OIG maintains five positions: the Inspector General, Counsel to the Inspector General, a
Senior Auditor, a Senior IT Auditor, and an Administrative Assistant. Appendix G and
Appendix H reflect the organizational structure of FCA and the OIG, respectively.




           	                                                      	
           	                                   2            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                              APRIL–SEPTEMBER 2013	
                                  Background



Farm Credit Administration

The FCA is an independent Federal agency of the United States government responsible for the
regulation and examination of Farm Credit System institutions chartered under the Farm Credit
Act of 1971, as amended (Farm Credit Act). The FCA is also a “designated Federal entity”
within the meaning of the Inspector General Act of 1978, as amended (IG Act).

As a non-appropriated agency, FCA funds its expenses primarily through assessments to the
institutions it regulates. The Agency’s FY 2013 budget was $61,900,000. Assessments by FCA
to FCS institutions for FY 2013 were $50,000,000 with other sources of funding totaling
$11,900,000. The OIG’s FY 2013 budget was $1,222,652.

At the end of this reporting period FCA had 277 employees, about half of which are examiners
located in five field offices. At the end of the prior semiannual reporting period the Agency had
265 employees.

Farm Credit System

The FCS is a Government-sponsored enterprise comprised of 4 Farm Credit banks and 83
lending associations, as of September 30, 2013, in all 50 states and Puerto Rico that primarily
make loans to agriculture. The System raises funds by selling securities in the national and
international money markets through its special purpose entity, the Federal Farm Credit Banks
Funding Corporation. These securities are not guaranteed by the U.S. Government.

The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the FCS, is
chartered by the Federal government to provide a secondary market for agricultural mortgage
loans. Farmer Mac is publicly traded and issues its own debt securities.

Additionally, there are four active service corporations organized under the Farm Credit Act that
provide services to FCS entities and eligible borrowers.




            	                                                       	
            	                                    3            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                APRIL–SEPTEMBER 2013	
                Audits, Inspections, and Evaluations



REPORTS ISSUED
The OIG conducts all audits in accordance with Government Auditing Standards issued by the
Comptroller General of the United States for audits of Federal organizations, programs,
activities, and functions. Inspections and evaluations are conducted in accordance with the
Council of the Inspectors General on Integrity and Efficiency Quality Standards for Inspections.
Copies of most OIG reports are available on the OIG web site at www.fca.gov/home/inspector.html,
or by contacting the OIG at (703) 883-4030, or by TTY at (703) 883-4359, or by e-mail at
ig_information@fca.gov.


FCA’s Telework Program
The objective of this audit was to determine whether the FCA’s telework program was
administered effectively. We determined the Agency had sufficiently established a policy
outlining telework eligibility requirements; adopted the telework program into the continuity of
operations plan; and submitted annual reports on the telework program to the Office of
Personnel Management. As a result of our audit:

1. 	 Permanent telework agreement documentation will include documentation to support
     decisions made.
2. Telework agreements will be renewed annually.
3. 	The Agency developed a system to track whether telework training was completed prior to
    telework agreements being signed.

The final audit report was issued on June 28, 2013.

Student Loan Repayments
The objective of this audit was to determine the effectiveness of controls related to student loan
repayment benefits. We determined the Agency’s policy governing student loan repayment
benefits is generally consistent with related laws and regulations; however varying levels of
compliance with the policy and its controls have evolved over time. As a result of our audit:

1. 	Senior management and the Chief Operating Officer evaluated the student loan repayment
    program;
2. 	The evaluation revealed the student loan repayment program was not consistently achieving
    its intended goal of recruiting highly skilled candidates so the program was suspended;
3. 	Alternative tools were identified to assist with recruiting efforts and provide incentive to a
    larger pool of candidates; and
4. 	Internal controls and documentation will be improved for outstanding student loan repayment
    commitments.
          
There are two closed action items, and one action item remains open at the close of this report.
The final audit report was issued on September 23, 2013.
            	                                                          	
            	                                      4             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                   APRIL–SEPTEMBER 2013	
AUDITS AND EVALUATIONS IN PROCESS
FY 2013 Independent Financial Statement Audit of FCA
The Accountability of Tax Dollars Act of 2002 required FCA and certain other agencies to submit
to Congress and the Office of Management and Budget (OMB) an audited financial statement
each fiscal year.

In continuing to assist the Agency in meeting these requirements, the OIG contracted with the
Bureau of Fiscal Services for Brown & Co. to perform the audit of FCA’s financial statements for
FY 2013. The audit remained ongoing at the end of this reporting period.


FY 2013 Federal Information Security Management Act Evaluation
The evaluation of the Agency’s compliance with FISMA for FY 2013 is performed by the OIG’s
Senior IT Auditor, using guidelines established by FISMA, OMB, and the National Institute of
Standards and Technology. This evaluation was ongoing at September 30, 2013.


STATUS OF UNIMPLEMENTED RECOMMENDATIONS
During this reporting period there were six new agreed-upon actions that were administrative in
nature. Five action items were closed during this reporting period. One action item remains
open.



      Audit, Inspection, and Evaluation Agreed-Upon Actions and
                           Recommendations

                                           Open During       Final Management
                                                                                      Open on
         Report             Issued         this 6-Month      Actions During this
                                                                                      10/1/2013
                                              Period               Period


   Telework Program        6/28/2013               3                  3                    0


   Student Loan
                           9/23/2013               3                  2                    1
   Repayment Program


                  Total                            6                  5                    1




           	                                                       	
           	                                   5             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                               APRIL–SEPTEMBER 2013	
MANAGEMENT ADVISORY REPORT ISSUED
The OIG Management Advisory Reports are designed to be a quick mechanism to offer the
Agency head and management suggestions on ways to strengthen Agency operations. The
OIG continued to provide information and best practices related to an advisory issued last
reporting period on FCA’s Use of Social Media.

On May 1, 2013, the Acting IG issued a Management Advisory. This advisory set forth the
Congressional and Administration’s efforts to curtail excessive administrative costs spent on
conferences. In reaction to the advisory, FCA management made assurances that guidance
had been issued to curtail unnecessary conference expenses.

The OIG plans to audit the conference and training expenses of the Agency during the next
reporting period.


INVESTIGATIONS
Two allegations were received. One allegation related to inappropriate personnel practices.
Following initial review, the matter was resolved. A second allegation concerning the FCA was
unsubstantiated and closed.

The FCA OIG acted as a liaison between the U.S. Department of Agriculture OIG and FCA
examiners by forwarding information relevant to an ongoing fraud investigation.

OIG Hotline calls and emails dealing with borrower complaints concerning FCS institutions and
other FCA program issues were referred to the FCA office or other Federal agency responsible
for reviewing such matters.




           	                                                       	
           	                                   6             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                               APRIL–SEPTEMBER 2013	
                    Legislation and Regulations


In furtherance of the OIG’s mandate to review existing and proposed legislation and regulations,
the Acting IG or the IG attends joint briefings of the FCA Board on regulations at the proposed
and final stages. The following were reviewed:

   Legislation

      1) Pub. L. 113-6 (March 16, 2013) Reporting Requirements Regarding Conferences
      2) Pub. L. 113-7 (April 15, 2013) STOCK Act - Nullification of the Effectiveness with
         Respect to Mandatory Public, Online Financial Disclosure Reporting to Certain
         Executive Staff and Congressional Staff
      3) S. 417/H.R. 37, Reduce Nonessential Vehicles Purchased and Leased by the
         Federal Government
      4) S. 549, Public Online Information Act of 2013
      5) S. 575/H.R. 1203, Judicial Transparency and Ethics Enhancement Act of 2013- IG
         for Judicial Branch
      6) S. 601, Water Resources Development Act of 2013
      7) S. 664, Government Contractor Accountability Act of 2013
      8) S. 808, A bill to establish the Office of the Inspector General of the Senate
      9) S. 994/H.R. 2061, DATA Act
     10) S. 1310/H.R. 2779, Bureau of Consumer Financial Protection-IG Reform Act of 2013
     11) H.R. 302, Metropolitan Washington Airports Authority Inspector General Act of 2013
     12) H.R. 313, Government Spending Accountability Act of 2013
     13) H.R. 314, Inspector General Improvement Act of 2013
     14) H.R. 983/S. 639/H.R. 1312, Online Communications and Geolocation Protection Act
     15) H.R. 1163, Federal Information Security Amendments Act of 2013
     16) H.R. 1211, FOIA Act
     17) H.R. 1468, Strengthening and Enhancing Cybersecurity by Using Research,
         Education, Information and Technology Act of 2013 (SECURE IT) 

     18) H.R. 1768, Accountability Review Board Reform Act of 2013

     19) H.R. 1793, Global Partnerships Act of 2013

     20) H.R. 1856, Closing Long-Empty Accounts Now Act of 2013 (CLEAN Act)

     21) H.R. 1858, Congress Leads by Example Act of 2013





           	                                                       	
           	                                   7             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                               APRIL–SEPTEMBER 2013	
  22) H.R. 1931, EASY Savings Act of 2013
  23) H.R. 2221, Sunshine on Government Act of 2013 (mandate requiring OMB, in
      consultation with CIGIE, to create a centralized website for OIG reports).
  24) H.R. 2548, Electrify Africa Act of 2013
  25) H.R. 2606, Stabilization and Reconstruction Integration Act of 2013
  26) H.R. 2675, Government Transformation Act
  27) Executive Order 13642, May 9, 2013, Making Open and Machine Readable the
      New Default for Government Information

Regulations
  28) Fall 2013 Abstract of the Unified Agenda of Federal Regulatory and Deregulatory
      Actions and Fall 2013 Regulatory Projects Plan

Final Rule
  29) Unincorporated Business Entities 

  30) Rules of Practice and Procedure; Adjusting Civil Money Penalties for Inflation

  31) Farmer Mac Capital Planning


Interim Final Rule
  32) Repeal of the Regulations Governing Registration of Mortgage Loan Originator
  33) Statement on Regulatory Burden Notice of Intent; Request for Comment

Policy Statement
  34) Equal Employment Opportunity and Diversity (FCA-PS-62)

Informational Memorandum
  35) Impact of Government Shutdown on FCA’s Operating Status
  36) Final Rule on Appraisals under the Equal Credit Opportunity Act (Regulation B) and
      the Truth in Lending Act (Regulation Z)
  37) High-Cost Mortgage and Homeownership Counseling Amendments to the Truth in
      Lending Act (Regulation Z) and Homeownership Counseling Amendments to the
      Real Estate Settlement Procedures Act (Regulation X)
  38) Final Rule on Mortgage Loan Originator and Compensation Practices under the
      Truth in Lending Act (Regulation Z)




      	                                                       	
      	                                    8            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                          APRIL–SEPTEMBER 2013	
                                Other Activities


Quarterly Survey of Farm Credit System Institutions
The OIG administers an ongoing survey of FCS institutions regarding the quality and
consistency of the Agency’s examination function and examiners. The OIG issues a quarterly
report and, at the end of each FY, a summary report on the surveys’ results to the Chief
Examiner and the FCA Board.

During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen, Chief
Executive Officers, and Boards of 29 FCS institutions. Quarterly reports for the 3-month periods
ended March 31 and June 30, 2013, were issued by the OIG to the Chief Examiner and the FCA
Board.

Staff Participation in Activities within the Inspector General Community
OIG staff members are encouraged to take part in organizations that contribute to the mission of
the Inspectors General community, as well as their individual professional development. Most
staff members are actively involved in one or more professional organizations, as well as
activities within the Council of the Inspectors General on Integrity and Efficiency.

The IG is a member of the CIGIE and participates as a member of CIGIE’s Inspection and
Evaluation (I&E) Committee, as well as the Legislation Committee and incoming Chair of the
Small IG group. Until the vacancy for a Counsel to the IG is filled, the IG is still active in the
Council of Counsels and the Directors of Investigation.

The OIG Senior Auditor and Senior IT Auditor attend Federal Audit Executive Committee
meetings and conferences. The Senior Auditor participates as a member of the I&E
Committee’s Roundtable. The Senior IT Auditor is actively involved in the IT Subcommittee of
the Federal Audit Executive Committee and attends local ISACA (formerly known as Information
Security and Control Association) meetings.

Staff Participation in Agency Organizations
OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development
OIG employees continually seek ways to improve skills and become knowledgeable in the
initiatives of the community of Inspectors General. Audit and legal staff must meet continuing
education requirements. Individual development plans are used to identify long and short-term
career goals along with specific training and developmental needs. These plans are geared to
enhance individual skills in the performance of official duties and meet the criteria needed to
achieve OIG performance goals and objectives.




            	                                                         	
            	                                     9             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                  APRIL–SEPTEMBER 2013	
                                        Annex



This annex is provided in accordance with the National Defense Authorization Act for FY 2008.

This referenced statute requires all Inspectors General appointed under the IG Act to include an
annex to their semiannual reports as follows:

    1) listing all contract audit reports issued during the reporting period containing significant
       audit findings;

    2) briefly describing the significant audit findings in the report; and

    3) specifying the amounts of costs identified in the report as unsupported, questioned, or
       disallowed.

Significant audit findings are defined as unsupported, questioned, or disallowed costs in excess
of $10,000,000, or other findings that the Inspector General determines to be significant. It
defines contracts as a contract, an order placed under a task or delivery order contract, or a
subcontract.

No contract audit reports meeting these criteria were issued on behalf of the OIG during this
reporting period.




           	                                                         	
           	                                    10             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                 APRIL–SEPTEMBER 2013	
                                Appendixes



APPENDIX A

                     Index of Reporting Requirements


 SECTION                                       TITLE                                         Page

    4(a)(2)      Review of legislation and regulations                                        7-8

    5(a)(1)      Significant problems, abuses, and deficiencies                               None

    5(a)(2)      Recommendations for corrective action                                          5

    5(a)(3)      Prior recommendations not yet implemented                                    None

    5(a)(4)      Matters referred to prosecutive authorities                                  None

    5(a)(5)      Information unreasonably refused or not provided                             None

    5(a)(6)      List of reports issued                                                        12

    5(a)(7)      Summaries of significant reports                                               4

    5(a)(8)      Management decisions with questioned costs                                    13

                 Management decisions on recommendations that funds be put
    5(a)(9)                                                                                    14
                 to better use

   5(a)(10)      Prior audit reports unresolved                                               None

   5(a)(11)      Significant revised management decisions                                     None

                 Significant management decisions with which the Inspector
   5(a)(12)                                                                                   None
                 General disagreed

   5(a)(13)      Compliance of Agency financial management system                               5

  5(a)(14)(15)   Peer reviews conducted of this OIG                                            15

   5(a)(16)      Peer reviews conducted by this OIG                                            16

                 FY 2008 National Defense Authorization Act Citation and
      845                                                                                      10
                 Requirement


            	                                                        	
            	                                11                FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                 APRIL–SEPTEMBER 2013	
APPENDIX B 





              Audit, Inspection, and Evaluation Reports Issued

                                                                           Recommendations
                            Number of Agreed Upon
        Report                                       Questioned Costs     That Funds Be Put to
                           Actions/Recommendations
                                                                               Better Use


Telework Program                      3                    $0                      $0


Student Loan Repayment
                                      3                    $0                      $0
Program


                   Total              6                    $0                      $0




          	                                                    	
          	                                  12          FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                           APRIL–SEPTEMBER 2013	
APPENDIX C 





                              Reports with Questioned Costs

                                                                Number                   Dollar Value

                                                                     Recom-       Questioned    Unsupported
                                                          Reports
                                                                    mendations      Costs          Costs

A. For which no management decision has been
   made by the commencement of the reporting                0            0            $0             $0
   period.

B. Which were issued during the reporting
   period.
                                                            0            0            $0             $0

                                   Subtotals (A+B)          0            0            $0             $0

C. For which a management decision was made
   during the reporting period.
                                                            0            0            $0             $0

   (i) dollar value of disallowed costs                     0            0            $0             $0

   (ii) dollar value of costs not disallowed                0            0            $0             $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                            0            0            $0             $0

E. For which no management decision was
   made within six months of issuance.
                                                            0            0            $0             $0




             	                                                            	
             	                                       13             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                      APRIL–SEPTEMBER 2013	
APPENDIX D 





              Reports with Recommendations that Funds
                         be Put to Better Use

                                                                Number of
                                                    Number of
                                                                 Recom-        Dollar Value
                                                     Reports
                                                                mendations

A. For which no management decision has been
   made by the commencement of the reporting           0             0              $0
   period.

B. Which were issued during the reporting period.      0             0              $0

                                  Subtotals (A+B)      0             0              $0

C. For which a management decision was made
   during the reporting period.
                                                       0             0              $0

   (i) dollar value of recommendations that were
       agreed to by management
                                                       0             0              $0

      - based on proposed management action            0             0              $0

      - based on proposed legislative action           0             0              $0

  (ii) dollar value of recommendations that were
       not agreed to by management
                                                       0             0              $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                       0             0              $0

E. For which no management decision was
   made within six months of issuance.
                                                       0             0              $0




          	                                                      	
          	                                    14          FCA OIG SEMIANNUAL REPORT TO CONGRESS

                                                                             APRIL–SEPTEMBER 2013
	
APPENDIX E 





                       Peer Reviews Conducted of this Office

                                                                  Function        Peer Review
          Peer Review Performed By          Date of Report
                                                                  Reviewed          Rating


Architect of the Capitol
                                            June 26, 2013           Audit             Pass
Office of Inspector General



U.S. Securities and Exchange Commission
                                          December 26, 2007     Investigations        Pass
Office of Inspector General




            	                                                  	
            	                              15            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                           APRIL–SEPTEMBER 2013	
APPENDIX F 





                     Peer Reviews Conducted by this Office

                                                               Function        Peer Review
               Peer Review Of          Date of Report
                                                               Reviewed          Rating



Consumer Product Safety Commission
                                       May 23, 2011              Audit             Pass
Office of Inspector General



U.S. International Trade Commission
                                      January 16, 2013           Audit             Pass
Office of Inspector General




           	                                                	
           	                          16              FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                        APRIL–SEPTEMBER 2013	
         APPENDIX G


                                                   FCA ORGANIZATIONAL CHART

                                                        Farm Credit Administration Board                                Office of
                                                                                                                                    1
                                                                                                                   Inspector General
                                                                           Board
                                                         Jill Long Thompson, Board Chair
                                                         Kenneth A. Spearman, Member                                Elizabeth M. Dean
                                                              Leland A. Strom, Member


                      Secretary to the Board

                          Dale L. Aultman                                                                         Office of
                                                                                                              Congressional and
                                                                                                                Public Affairs

                        Equal Employment                                                                      Michael A. Stokke
                                                              Office of the Chairman
                       and Inclusion Director                        and CEO
                              Thais Burlew                      Jill Long Thompson                            Office of Secondary
                                                                                                                               2
                                                                                                               Market Oversight

                        Designated Agency                                                                       Laurie A. Rea
                          Ethics Official

                       Wendy R. Laguarda



                      Special Advisor YBS &
                       Local Food Systems
                         Mark Johansen

                                                                    Office of the Chief
                                                                    Operating Officer

                                                                 William J. Hoffman




       Office of Management                  Office of Examination                           Office of                             Office of
                                                                                                                                               3
              Services                                                                    Regulatory Policy                     General Counsel
                                                S. Robert Coleman
         Stephen G. Smith                                                             Gary K. Van Meter                         Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Reports to the Board for policy and to the CEO for administration.
3
    Maintains a confidential advisory relationship with each of the Board members.




                          	                                                                                	
                          	                                                    17                    FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                                                       APRIL–SEPTEMBER 2013	
APPENDIX H




  Office of Inspector General Organizational Chart



                                Inspector General

                                Elizabeth M. Dean



    Administrative Assistant

            Debra M. Miller




  Counsel to the                    Senior Auditor                     Senior Information
Inspector General                                                      Technology Auditor
                                Veronica G. McCain
     Vacant                                                              Tammy F. Rapp




                              Elizabeth M. Dean, Inspector General              September 2013




        	                                                        	
        	                                   18             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                             APRIL–SEPTEMBER 2013	
APPENDIX I 




                                  Glossary of Terms


Agency            – Farm Credit Administration
BFS               – Bureau of Fiscal Services
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House of Representatives
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
I&E               – Inspection and Evaluation
ISACA             – Information Security and Control Association
IT                – Information Technology
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
Pub. L.           – Public Law
S.                – Senate
System            – Farm Credit System




           	                                                     	
           	                                 19            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                             APRIL–SEPTEMBER 2013	
            R E P O R T 

    Fraud    |   Waste   |    Abuse    |    Mismanagement




            FARM CREDIT ADMINISTRATION
            OFFICE OF INSPECTOR GENERAL

     Phone: Toll Free (800) 437-7322; (703) 883-4316 


     Fax: 	 (703) 883-4059 


     E-mail: fca-ig-hotline@rcn.com

     Mail: 	 Farm Credit Administration 

              Office of Inspector General 

              1501 Farm Credit Drive 

              McLean, VA 22102-5090





	                                           	
	                            20       FCA OIG SEMIANNUAL REPORT TO CONGRESS

                                                        APRIL–SEPTEMBER 2013
	
